<html>
<title> - THE FUTURE OF NATO: NEW CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





          THE FUTURE OF NATO: NEW CHALLENGES AND OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, APRIL 2, 2019
                               __________

                           Serial No. 116-23
                               __________

        Printed for the use of the Committee on Foreign Affairs


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  

            Available:  http://www.foreignaffairs.house.gov/, 
             http://docs.house.gov, or http://www.govinfo.gov
             
             
                              ___________
	     
	            U.S. GOVERNMENT PUBLISHING OFFICE
	                         
35-790PDF                 WASHINGTON : 2019




             
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennesse
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                                                                                              

                    Jason Steinbaum, Staff Director
              Brendan Shields,  Republican Staff Director
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
THEODORE DEUTCH, Florida             ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island        JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas                FRANCIS ROONEY, Florida
DINA TITUS, Nevada                   BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             GREG PENCE, Indiana
DAVID TRONE, Maryland                RON WRIGHT, Texas
JIM COSTA, California                MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas              TIM BURCHETT, Tennessee
                                                                                                                                                                                                                                                                   
                                                                         
                    Gabrielle Gould, Staff Director
                            
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jones, James L., USMC, Retired, Jones Group International........     6
Farkas, Evelyn N., Resident Senior Fellow, German Marshall Fund 
  of the United States...........................................    13
Wilson, Damon, Executive Vice President, Atlantic Council........    22

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Materials submitted for the record from General Jones............    26

                                APPENDIX

Hearing Notice...................................................    47
Hearing Minutes..................................................    48
Hearing Attendance...............................................    49

 
          THE FUTURE OF NATO: NEW CHALLENGES AND OPPORTUNITIES

                         TUESDAY, APRIL 2, 2019

                          House of Representatives,
  Subcommittee on Europe, Eurasia, Energy, and the 
                                       Environment,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 3 p.m., in 
Room 2172, Rayburn House Office Building, Hon. William Keating 
(chairman of the subcommittee) presiding.
    Mr. Keating [presiding]. This hearing will come to order.
    The subcommittee is meeting today to hear testimony on the 
future of NATO and our American commitment to it.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    Mr. Keating. I will now make an opening statement, and 
then, turn it over to the ranking member for his opening 
statement.
    This Thursday marks the 70th anniversary of our NATO 
alliance. We recently reflected on the importance of NATO in a 
hearing last month held by the full committee. Today, I would 
like to follow on that by discussing and examining the future 
of NATO and America's commitment to it over the next 70 years.
    We have watched NATO evolve in significant ways since its 
inception. And looking at the different threats we now face 
today, we must anticipate that it will again evolve in new ways 
to address this changing landscape. This evolution is important 
because NATO has long been, and will continue to be, a 
cornerstone of our security and defense policies. Our strategic 
advantage over our competitors is that we have a coalition. 
Russia and China cannot say the same. And that is something we 
cannot lose sight of nor ever take for granted.
    However, to maintain this advantage, we need strong 
American leadership along two fronts. The first is by making it 
clear that we are committed to NATO and that the alliance 
cannot be broken or undermined by our adversaries. The second, 
and the focus of this hearing today, is America's role in 
leading NATO and its member States and partners through this 
unique period of change, as new members join and as we face new 
threats that challenge NATO's readiness and ability to respond 
in an effective and a timely manner.
    NATO expansion has meant new and often smaller States are 
being integrated into the alliance, and this presents questions 
for how best to coordinate this integration, their 
contributions, and the strengths and the vulnerabilities that 
they bring with them.
    Further, NATO must adapt in order to address new and 
emerging threats from China, Russia, cyber, hybrid warfare, 
terrorism, and climate change, among others. This means 
contemplating possible changes in NATO's structure and thinking 
strategically, not only about how NATO should adapt to this 
landscape, but also how the U.S. and other member States must 
work together, now more closely than ever, to strengthen the 
alliance and their own capabilities. We addressed our shared 
values in our previous subcommittee hearing last week, and NATO 
is one example where our shared values really matter.
    There is no disagreement over commitment to reach the 2 
percent benchmark that has been the case since at least 2014, 
and that was the continued understanding as recently as 4 weeks 
ago when I was in Brussels. And that is the understanding as 
NATO members gather this week in Washington. As more members 
meet the 2 percent and the 20 percent thresholds for defense 
spending, I would like to examine in this hearing how member 
States should prioritize their investments within the context 
of new threats NATO members are facing.
    As I take stock of the threats we are facing, it could not 
be clearer to me that this is what we need and this is the time 
we need to be standing shoulder to shoulder with no daylight 
between us. Our friends and allies must stand together, 
defending our shared values that are most sacred to our 
security and that are under attack, values of freedom and 
democracy.
    We need NATO allies who are equally committed to those 
values as we are and who we can trust completely, because our 
NATO alliance is about our security. Lives are on the line. We 
must hold new and aspiring members to the standard, but, 
perhaps more importantly, we must hold current members 
accountable to upholding these values that are at the very core 
of our NATO alliance. We should look at what our new member 
countries are ready to bring to the table as well as democratic 
backsliding among our current members, as well as possible 
action like Turkey's purchase from Russia of S-400's and 
working with China on FG networks in Europe.
    I, therefore, look forward to addressing these important 
issues today and hearing from our witnesses. We have incredible 
insight into how we should go planning in the next 70 years as 
a country, and we have that same insight as allies. And it is a 
pleasure to hear from our witnesses today with their opinions 
about which direction we should go.
    With that, I yield to the ranking member, Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you to the panel for being here with us today.
    Look, NATO is not just an ally; they are our most important 
group of allies. We understand that strong alliances protect us 
from aggressors and guard our shared values.
    We appreciate you guys all being here. If you wonder why 
there may not be a huge turnout today, it is because this is 
the third hearing in 3 weeks that we have had on our friendship 
with NATO and Europe. We understand it is very important.
    Tomorrow morning, we are going to have the NATO Secretary 
General Stoltenberg address our Congress in advance of the 70th 
anniversary of our security cooperation, 70 years of working 
together to face down oppression. It is sufficient to say that 
our alliance is strong.
    That being said, there are a lot of other issues we need to 
actually finally address on this committee has well. In the 
past week, we saw the first round of elections in Ukraine, 
Brexit's status changing on a nearly hourly basis, and Russia 
landed soldiers in our own backyard to prop up the corrupt 
Maduro regime.
    And Ukraine exit polls show that the political newcomer and 
the comedian won about 30 percent of the vote, while current 
President Poroshenko won about 18 percent. These two candidates 
will now face off on April 21st. By all accounts, it is likely 
that both candidates will support Ukraine's move toward NATO 
and EU accession. It is a good thing for our alliance and the 
United States. We also need to be having a hearing on what we 
saw in that first round of elections and what we can expect 
from the runoff.
    In the U.K., Prime Minister Theresa May has indicated that 
she will resign following a successful Brexit. However, we are 
now seeing a coalition formed to push for a soft Brexit where 
the U.K. retains its membership of the European economic area. 
We could be having a hearing on how this would affect 
transatlantic trade and security with Great Britain, with whom 
we have the most special bilateral relationships.
    Russia, the largest focus of this subcommittee, is not only 
responsible for the death of thousands of Syrians, but now has 
entrenched themselves to protect Venezuelan dictator Maduro as 
he starves his own people, a firsthand example of how socialism 
never works. There was once a time when this committee cared 
about Russia's activity in our own backyard, and we need to 
continue to do that, instead of trying to handcuff the Trump 
administration from having a military option on the table 
during diplomatic negotiations. Had Congress threatened to 
block President Kennedy's strategy to militarily quarantine 
Cuba from receiving Soviet ICBMs during the Cuban missile 
crisis and use military force, if necessary, to protect our 
Nation, I do not know if our negotiations would have gone as 
well as they did.
    I believe that some on this committee are being blinded by 
their opposition of the current administration, resulting in 
the same hearing 3 weeks running. The only reason, because the 
administration is telling our NATO allies the hard truth, that 
you can do more. And I would agree at the beginning. We can say 
it differently, but it is a message that needs to be said.
    So, I reiterate my support for NATO, this committee's 
support, and the Congress' support for NATO and Europe. I just 
think it is time to begin to move on to other pressing issues 
in this world as well.
    With that, Mr. Chairman, I thank you, and I yield back.
    Mr. Keating. I thank the ranking member.
    And I thank our witnesses for being here today. I realize 
that your schedules are greatly under strain, and we really 
appreciate your offering your thoughts here.
    I will now introduce our witnesses. General James Jones 
served as Commander of the U.S.-European Command and Supreme 
Allied Commander in Europe. He also served as President Obama's 
National Security Advisor and the State Department's Special 
Envoy for the Middle East Regional Security. He is currently 
the chairman of Snowcroft Center for Strategy and Security at 
the Atlantic Council.
    Dr. Evelyn Farkas is a Resident Senior Fellow at the German 
Marshall Fund of the United States. Previously, she served as 
Deputy Assistant Secretary of Defense for Russia, Ukraine, and 
Eurasia, and as a Senior Advisor to the Supreme Allied Command 
of Europe and Special Advisor to the Secretary of Defense for 
the NATO summit. Welcome.
    Mr. Damon Wilson is the executive vice president of the 
Atlantic Council covering Europe and NATO. He previously served 
as Special Assistant to President George W. Bush and Senior 
Director for European Affairs at the National Security Council, 
and Deputy Director of the Private Office of the NATO 
Secretary.
    We appreciate hearing you today, and please limit your 
testimony to 5 minutes. And without objection, your prepared 
written statements will be made part of the record.
    I will now go to General Jones for his statement. Thank you 
very much, General, for being here. Thank you for your service.

    STATEMENT OF JAMES L. JONES, USMC, RETIRED, JONES GROUP 
                         INTERNATIONAL

    General Jones. Thank you, Mr. Chairman and Ranking Member 
Kinzinger.
    I am honored to be here, in part, to celebrate the 70th 
birthday of the North Atlantic Treaty Organization. I was 
privileged to serve as the 14th Supreme Allied Commander from 
2003 until 2006. I was honored to be in NATO when we went from 
19 to 26 countries in 2004, and I am delighted to see that 
North Macedonia will be joining us, to bring the total 
membership of NATO to 30 members in the near future.
    One of the things that NATO has to deal with, and has dealt 
with I think and is doing quite well at, is understanding that 
there is a great difference between the 20th century and the 
21st century in terms of what NATO does. Without going into too 
much detail, NATO is undergoing, in my view, a transformation 
that needs to continue from being a reactive defensive alliance 
to a more proactive, engaged alliance to actually prevent 
future conflict.
    Projecting influence in the face of new threats, in a way 
we are going back to the future to face the rise of autocrats, 
and intelligent autocrats that have the economic capability to 
cause us great harm. Dominant among those challenges is China's 
quest for influence, not only total control inside its borders, 
but also the most control as it can gain outside of its 
borders, and it is moving into the European land mass with 
alarming speed.
    Russia, not too much needs to be said about that. Mr. Putin 
is very clear on what he thinks about NATO, and his most 
cherished ambition is to do anything he can to bring about 
disruption and, in fact, ultimately, the demise of NATO.
    Iran continues to be the world's greatest exporter of 
terror. Africa remains a challenge for the European land mass 
that NATO has to be involved in, non-State actors and hybrid 
warfare, just to name a few.
    Gentlemen and ladies, the defense of Europe has shifted 
from Germany to the Black Sea and to the Baltic States in the 
east, and certainly to the North African coastline to the 
south. And that fact brings with it a number of threats that 
our friends and allies are concerned with.
    NATO is relevant today I think in real terms. It is active 
outside of its borders in many ways that not many of our 
countrymen really understand. In Afghanistan, Operation 
Resolute Support is underway since January 2015. In Kosovo, 
4,000 troops are deployed. In the Mediterranean, Active 
Endeavour has been replaced by Sea Guardian, again, a very 
important operation to counter terrorism. In Iraq, the NATO 
mission is underway since 2018 to help with training. And the 
African Union peacekeeping operations, going back to 2007 in 
Somalia, air policing in 2014 in the NATO land space where 
countries do not have adequate air forces to protect 
themselves. In short, this is a different world that we live 
in. It is a world that demands a very proactive and engaged 
NATO. And it also demands American leadership and 
participation.
    The financial picture is looking better. We have not 
arrived where we need to be, but we are getting there. NATO is 
buying the right type of equipment, in my view, and is 
partnering with the economic reality and the economic threats 
that countries like China and Russia, in particular, bring to 
the European land mass.
    In my view, peace and stability can only be maintained in 
the European land mass and elsewhere with American leadership, 
with involvement in three areas: security, economic 
development, and governance and rule of law. If you combine 
those three things, particularly I might bring to the attention 
of the committee the Three Seas Initiative, which was brought 
about by the Atlantic Council in 2014, which is to help the 
Central and Eastern Europeans with their own type of Marshall 
Plan, if you will, a north-south corridor from the Baltics to 
the Adriatic involving energy, telecommunications, and 
transportation renovation. Everything during the cold war was 
built east to west. Twelve countries are now involved in this 
project, and over 50 projects are underway. The U.S. Government 
has supported it very well. And this, combined with the 
military posture of NATO, which is encouraging, I think will 
contribute measurably to peace and stability in the European 
land mass.
    Thank you very much.
    [The prepared statement of General Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, General Jones.
    Dr. Farkas?

  STATEMENT OF EVELYN N. FARKAS, GERMAN MARSHALL FUND OF THE 
                         UNITED STATES

    Ms. Farkas. Thank you. It has been a while since I have 
been on the House side, though I worked for 7 years on the 
Senate side. But I started here with this committee as a fellow 
in 1992, and they had me sitting in that anteroom there. So, it 
is nice to be back, but I do not have familiarity with the 
buttons.
    Thank you, Mr. Chairman, Ranking Member Kinzinger, all of 
you members, for taking the time today, I know for now the 
third hearing on NATO. It is important because today our 
international system, NATO, and democracy around the world have 
never been in graver danger than they are today since the cold 
war.
    Today, Americans and our democratic allies in Europe, Asia, 
and elsewhere, are in a standoff against autocratic dictators 
working to destroy our democracy and to thwart our domestic and 
international objectives.
    First and foremost among these adversaries, as the ranking 
member mentioned, is the Russian government, led by Vladimir 
Putin. Russia is our greatest threat. The Kremlin is not 
satisfied solely by threatening our international interests, it 
seeks also a corrupt, weak, and undemocratic America.
    Russia, together with China, which seems to co-opt rather 
than destroy the international order, aims to return us to a 
19th century sphere-of-influence system. Now we know from 
history that this alternative to the current global order leads 
to great power military competition, economic protectionism, 
and, ultimately, war.
    Russia would like nothing more than a United States 
uncoupled from the alliances that have brought us unprecedented 
success. NATO, our only operational collective security 
alliance, is in the sights of Putin's Russia. Yet, in this 
moment of danger, NATO is strong. In the decades since 1991, 
NATO expanded in territory and mission, as the general 
mentioned, and the recent historic agreement between Greece and 
North Macedonia means the latter will become the 30th alliance 
member. Countries want to join, and when they qualify, we 
welcome them.
    NATO did not grow in size, however, solely to deter Russia, 
though that was a motivation. NATO primarily enlarged to 
strengthen democracy and free markets. Today, deterring Russia 
is, however, once again at the top of the NATO agenda. And I 
would prioritize that. Russia violated the sovereignty of 
Georgia and Ukraine with invasions and occupations and the 
sovereignty of almost all, if not all, NATO neighbors with 
cyber and information operations.
    Meanwhile, China hopes to develop 3G communications 
networks in Europe, which would leave NATO members more 
susceptible to Chinese espionage. This comes on top of Chinese 
Belt and Road Initiative infrastructure projects which have 
threatened to put European countries into debt traps, beholden 
to Chinese entities for decades.
    NATO must focus on countering autocracies like Russia and 
China. And again, that is where I would put the priority. 
First, NATO must provide military support and advice to 
Ukraine, Georgia, and Moldova. NATO should seek a way to bring 
Georgia into NATO, perhaps temporarily carving out the occupied 
areas, as we did with East Berlin during the cold war. And I am 
sort of stealing this idea from my colleague, Damon Wilson, who 
once set it forth in an Atlantic Council paper several years 
ago. Maybe it will catch on now.
    Second, NATO must prepare the two remaining Balkan 
aspirants, Bosnia and Kosovo, for membership and neutralize the 
threat posed by Russian influence and presence in the Balkan 
region.
    Third, NATO members must contribute more to building 
military conventional and asymmetric capabilities. Allies, of 
course, should meet their pledge to spend 2 percent of their 
GDP on defense and to invest 20 percent on real capabilities by 
2024, but NATO should also establish, among other things--and I 
have listed a bunch more in the written testimony--a fund to 
help Eastern European allies and partners who still have legacy 
Soviet and Russian equipment. This was something that we did 
not have money for under the Obama Administration, but I would 
have liked to have done it dearly.
    Fourth, NATO must protect its military cutting edge and 
competitiveness vis-a-vis China.
    Fifth, finally, and most importantly, NATO members must 
renew their vows to democracy. Democratic backsliding cannot be 
ignored, especially when Russia works every day to cripple 
NATO's cohesion and resolve. The governments of Hungary, 
Poland, and Turkey must be held accountable.
    In the United States as well, we must heed the warning of 
the authors of How Democracies Die. Democracies die when 
leaders do four things. One, refuse to play by the democratic 
rules. Two, de-legitimize their opponents. Three, tolerate or 
encourage violence. Four, prepare to curtail the civil rights 
of political opponents and the media.
    We must shore up our democracy and improve the processes 
and functionings of its institutions. We must ensure civility 
and democratic culture. We must fight corruption and improve 
our capitalist system to provide transparency, opportunity, and 
basic well-being for all Americans. Any alliance is only as 
good as the sum of its parts.
    Thank you.
    [The prepared statement of Ms. Farkas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Dr. Farkas.
    Mr. Wilson?

 STATEMENT OF DAMON WILSON, EXECUTIVE VICE PRESIDENT, ATLANTIC 
                            COUNCIL

    Mr. Wilson. Chairman Keating, Ranking Member Kinzinger, 
distinguished members of the committee, thank you for the 
opportunity to testify on the future of NATO, and thank you for 
your leadership on our alliance.
    NATO is the most successful alliance in history, in large 
part because of its ability to adapt. So, as ministers gather 
in Washington today, it is appropriate that this committee 
focuses not on the past, but on the future. As our Nation 
prepares for a long period of strategic geopolitical 
competition, we need to put our alliances in NATO, in 
particular, at the core of our strategy. And to make them 
effective, U.S. leadership is the key ingredient.
    The United States and its allies increasingly agree that 
the great challenge of the 21st century will be the competition 
between a free world and authoritarian, State-led capitalism, 
especially China and Russia. That means U.S. interests are best 
served when Washington and its allies act together. We need our 
allies as force multipliers of our interests and values when we 
face Moscow and Beijing. For NATO, this means responding to 
Russia's aggression today while preparing for the challenge 
posed by China's global reach.
    With regard to Russia, in my view, this requires a 
significant continuous U.S. military presence in the Baltic 
States, Poland, in the Black Sea, and Balkan regions, together 
with our allies. Today, our allies are forward positioned in 
the Baltic States; the United States is not and should be.
    The Russian challenge to us is likely to remain asymmetric. 
Therefore, we should double down on our support, working with 
the European Union to strengthen the resilience of democratic 
societies through efforts that range from diversifying energy 
routes and supplies to democratic defense of disinformation.
    At the same time, we need a common approach with our allies 
on how to handle China's challenge, including by agreeing to 
common trade practices and approaches to set global standards, 
supporting our allies and establishing CFIUS-like review of 
foreign investment, and forging a concerted transatlantic 
effort to ensure the free world harnesses new technologies such 
as secure 5G before the authoritarians do.
    In an era of great power competition, our goals should be 
to keep and expand our alliances. This means that we should 
stand by NATO's open-door policy, recognizing that welcoming 
new members is about expanding the zone of security and the 
community willing to defend freedom. Enlargement to those 
willing and able to accept the responsibility of membership 
should be seen as in our interest, not just in the interest of 
the aspirants. The Senate will have the next opportunity to act 
to welcome North Macedonia as NATO's 30th member, demonstrating 
that Russia's effort to disrupt our interest in the Balkans is 
failing.
    Looking ahead, however, we should keep an open mind with 
regard to additional members, whether that be other Balkan 
nations, Cyprus as part of a settlement, Ukraine and Georgia in 
a way that Article 5 would not apply to their occupied 
territories, or Sweden, Finland, or Malta, if their publics and 
governments opted for it.
    While geopolitics have returned to Europe, today's 
competition is global. Russia is back in the Middle East and 
Latin America. Witness China's global reach.
    Recognizing this reality, the United States should lead a 
more concerted effort to thicken the political bonds and 
operational ties between NATO and its global partners. Today, 
these partnerships are an under-invested asset at NATO 
Headquarters, and we should begin to change that. This means 
the United States could consider formalizing the links among 
U.S. treaty allies in Europe and those in Asia. And at the same 
time, we should begin fostering alliance-like links among our 
existing allies with strategic partners such as India and, in 
Latin America, Colombia, Brazil, and Mexico, as we consider 
what unfolds in Venezuela.
    Beginning to build a network of alliances now with the 
United States at the center would provide a more capable and 
intentional global democratic response to the authoritarian 
challenge. It could also be a precursor to a more formal set of 
alliances among democracies who are committed to protecting 
their way of life and a democratic international order.
    So, as NATO leaders being arriving here today, there is no 
doubt a lot of attention will focus on which allies are making 
strides toward their defense investment pledges, and rightly 
so. While much more remains to be done, we can recognize that, 
since 2016, European allies have spent an additional $41 
billion and have plans through 2020 of an additional $100 
billion.
    That said, I am concerned about the current burden-sharing 
debate, that it can misplace the focus on what is strategically 
important inside the alliance. America's friends and allies are 
the United States' best competitive advantage. Indeed, 
Congress, the administration, and the American people can view 
our alliances as a national strategic asset. As such, each 
administration serves as a steward of these assets with a 
responsibility to defend, strengthen, and lead them. U.S. 
leadership, after all, is the decisive element in determining 
the success of NATO's future.
    Thank you for the privilege to testify today. I look 
forward to your questions.
    [The prepared statement of Mr. Wilson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Mr. Wilson.
    I will now recognize myself for 5 minutes.
    This week, we look back and celebrate NATO and look back at 
the history. But this hearing is about looking forward.
    General Jones, you hit, I think, the theme of that hearing, 
talking about a new way of viewing, a much more proactive way. 
We will look at the 2 percent, the 20 percent, but, really, 
what is NATO's role in coordinating how that is going to be 
spent, how we are going to move in that direction, eliminating 
unnecessary redundancies and ensure improved deterrence and 
readiness in that regard? So, in that proactive sense that you 
spoke about, could you share some of your thoughts in that 
regard?
    General Jones. Thank you, Mr. Chairman.
    I think that this is really the moment for the alliance to 
really transform itself in its thinking philosophically in 
response to some very, very serious threats that are coming our 
way. NATO is included in all of these 5G discussions that are 
going on about China and the U.S. and Huawei, and the like. 
NATO can, and is showing signs of moving toward, buying the 
right type of equipment for the future. It is showing signs of 
moving into the countries that border the Black Sea and the 
Baltic States with expeditionary missions. There is even talk 
in Poland about encouraging the United States to establish 
fixed bases again in Poland.
    China and Russia are devoting a large part of their weapons 
acquisition to area and access denial in terms of reinforcing 
NATO, the European land mass, or in the Pacific. That will 
cause us to have to think about how we are able to react 
quickly in times of emergency.
    But I also really think that, as the example--and if you do 
not mind, Mr. Chairman, I would like to include this manual on 
the Three Seas Initiative as part of my testimony.
    Mr. Keating. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    General Jones. Thank you.
    Because it is the combination, I think--the future of NATO 
is not just a military future. It is about economic strength. 
It is about governance and rule of law, as Dr. Farkas pointed 
out. And it is about ways in which we can and must be 
successful against the rise of these new autocracies that are 
actually quite smart in terms of using----
    Mr. Keating. If I could, General, I would like to use that 
comment you just gave as a point to include our other witnesses 
on this question.
    General Jones. Sure.
    Mr. Keating. Mr. Wilson mentioned a misplaced focus on just 
the percentages. It does not mean it is not important. It just 
means that it seems to be too much of a focus.
    And going back to Dr. Farkas' comments in that regard, I 
was troubled when I was in the Munich Security Conference just 
about 4 weeks ago--there was a poll in Germany that said the 
view of the German people is 85 percent unfavorable to the 
United States.
    Dr. Farkas, you were mentioning the role of the U.S. in 
NATO, particularly in terms of trying to stop democratic 
backsliding. And if you look at areas like civil rights and 
issues of autocracy in Hungary and Poland and Turkey, how can 
the U.S. do a better job assuming that mantle that we should 
have in this regard, given the current way the U.S. is being 
viewed? What can we do to perhaps resume being the mantle of 
all these civil rights, rule-of-law, democracy issues that you 
mentioned?
    Your microphone. There you go. You are in the House again. 
All right.
    Ms. Farkas. So, first, Mr. Chairman, I would say, looking 
internationally, which is where most of my expertise is, we 
need to do more helping put pressure, helping the opposition, 
frankly speaking, in Hungary, in Poland, in Turkey, to put 
pressure on the government to do better, so to be more of a 
liberal democracy, if you will. If you recall the famous 
statement by Viktor Orban, the Prime Minister of Hungary, he 
very proudly said, we are not a liberal democracy, but without 
the liberal you are not really much of a democracy.
    So, there needs to be more pressure put on these countries. 
But what we have found--and here we saw different types of 
approaches taken to Hungary under the administration. I worked 
for the Obama Administration and now the Trump administration. 
And I think we need kind of a mix of the two, where we speak 
frankly and directly to the Hungarians and to our allies, to 
the leadership, and we appreciate them for their military 
contributions, because those three countries are actually very 
strong contributors, with Turkey and Poland making the 2 
percent cut and, also, having the highest--Turkey certainly has 
one of the highest numbers of people under arms. So, we 
recognize that, but at the same time we know that their 
democracies are weak; we know that they need help. We need to 
put more money into that through our foreign assistance 
programs to help the opposition, to help their democracy and 
their civil society.
    Here at home. I would say the polls--and I think Damon is 
probably also familiar with these polls--the polls, I believe 
that they tend to ask about our President and how the German 
public views our President, and then, America. But these two 
things obviously become intertwined. And President Trump is not 
popular in Europe because of how he has spoken out with regard 
to the German Chancellor and the Prime Minister of the U.K., so 
Prime Minister May, and other leaders. He is seen as not being 
respectful, and I think the push for increased assistance to 
NATO, while it is very consistent with all of the other 
Presidents who have come before our current President, he does 
it in a way that, obviously, is irritating not just to the 
leadership, but to the people.
    With regard to what we have to do about shoring up our 
democracy----
    Mr. Keating. Appreciate that.
    Ms. Farkas. Yes, sorry. Obviously, more needs to be done 
there. And I would really just urge Congress to do what you do 
best. I love Congress, and Congress just needs to have a robust 
role in our democracy.
    Mr. Keating. Thank you, Dr. Farkas.
    I yield to the ranking member, Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And just respectfully, on the polling front, as you were 
asking that, I looked up an old poll from 1983. And in Britain, 
Great Britain, in England, Ronald Reagan's popularity was 21 
percent in 1983 in England. And I would argue that he was 
actually a pretty good President in hindsight.
    Typically, I think if we look at Eastern Europe, there 
would probably be a much more popular, as we have always seen, 
view of the United States because they remember what it was 
like to live under oppression. And this is why I think this is 
so important to keep NATO together.
    I am going to go 2 degrees of separation from NATO for a 
second and just say one of the challenges I think we face as a 
country is people think they are tired. I think they feel 
exhausted, even though they really are not. And we are fighting 
on an economic front in many cases, I think primarily China.
    And so, I think this is part of the reason I came out and 
said that I think cutting off aid, for instance, to El 
Salvador, Honduras, and Guatemala was not smart, because as we 
back away from it, right now I think Central and South America 
are on the verge of, frankly, democratic governance, a major 
change. But every time we pull away, the Chinese will show up 
and they are going to ask how much money we were giving El 
Salvador, for instance, get that number and double it.
    We saw, in fact, a few months ago El Salvador de-recognized 
Taiwan. And you wonder why that happened? Well, it was because 
they got money from China to do it. So, this is the battle we 
are in.
    So, I think when we talk about, whether it is in Europe and 
NATO, and things like that, we have to keep in mind the 
importance of the economic side of what we do. And so, with 
that, I want to talk, because obviously Putin being a prime, I 
guess, adversary of the United States, I want to talk about his 
movement into Venezuela, even though this is not, again, 
specifically NATO.
    Maduro has lost trust in his own armed forces. So, Putin 
has to come in and protect him. That is what is going on. We 
have seen this play out before when Russian forces entered 
Syria to protect Bashar al-Assad. And I remember Russia said 
they are just here for maintenance; they are here to take care 
of a base we have. The next thing we knew, there were thousands 
of them. Now they illegally occupied Georgia, Ukranian 
territory, and now they are in Venezuela.
    So, Mr. Wilson, should we be concerned with Russia's 
strategy of illegally occupying land as well as propping up 
despot regimes around the world? And what would you recommend 
to this administration to do to counter Russia in that?
    Mr. Wilson. Yes, thank you for that question.
    I think the reality is we are facing a declining Russia 
which is seeking to disrupt our interests, and doing so pretty 
effectively. When your goal is disruption rather than building, 
it is actually an easier threshold to achieve. We have seen 
that close to their neighborhood. We are seeing it play out 
globally.
    So, I think the twofold issue of an alliance that is 
transforming, to be focused more on defense and deterrence, is 
quite important. And I think the alliance has begun that 
process. I think it is still begun and playing out on the home 
front in Europe.
    But I think we need to be a little bit more strategic about 
how we think of disrupting Russia's interests on a more global 
platform. We should have a strategy that thinks about how 
Beijing and Moscow do not become allied in their efforts, but 
that we drive that wedge. We should be paying attention to what 
Russian forces are doing in the Central African Republic and in 
Venezuela. It is pretty astonishing. So, I think thinking 
through a strategy of not just deterrence in Europe, but 
disruption of Russian interests on the global playing field is 
overdue.
    We look at Venezuela, where Cuban intelligence, Russian 
military, and Chinese money, debt, is fueling this crisis. It 
is why I have suggested that we should not just support what is 
happening on the part of the Venezuelan people, but think about 
how we work with Colombia, Brazil, and back the regional 
countries, and bring our European allies into this kind of 
conversation, so that we can actually have a more intentional 
effort of disrupting this effort here in Venezuela.
    A quick word on what you said at the beginning, the Chinese 
strategy. The economic piece is fundamental. We are never going 
to outspend the Belt and Road Initiative, and we should not. It 
is not how we play. We do need to recognize that U.S. capital 
markets, private sector investments, private equity dwarf what 
the Chinese government can do in BRI over time.
    Part of it is that it is difficult. We do not want our 
government telling our private sector what to do. But how do we 
think of harnessing in a geo-economic term American capital 
markets to advance American interests and values in these 
places? At the end of the day, whether you are in Serbia or 
other countries, they will accept and take Chinese money, but 
usually a mother wants her child to study in the United States 
or Europe. And if a young person is competing for a job, they 
want the opportunity to work for a U.S. company, where they 
know there will be a meritocracy.
    We can win this because we see individual decisions 
recognize the difference between their strategy and ours, but 
we need a stronger approach to a geo-economic----
    Mr. Kinzinger. Thank you.
    And I think Eximbank is a prime example. That is still 
languishing right now. And that is, I think, a very effective 
thing for our economy.
    I had more questions for you, General, but I am out of 
time. So, I yield back.
    Thank you, Chairman.
    Mr. Keating. Thank you.
    The chair recognizes Mr. Costa of California.
    Mr. Costa. Thank you very much, Mr. Chairman, and I thank 
my colleague for yielding.
    General, we appreciate your commitment and service to our 
country.
    And you made a number of comments. I think we are all in 
agreement that the 2 percent goal for commitments by NATO 
countries is something that has been determined necessary. We 
need to continue to press them, especially some of our allies 
who have been backsliding. We know who they are. How we do that 
is critical.
    You talked about their making the right choices on 
equipment. In terms of procurement, what do you mean by that?
    General Jones. I am sorry, in terms of equipment?
    Mr. Costa. Procurement of equipment. You say they are 
making the right decisions.
    General Jones. I am really talking about investing in real 
war-fighting capability and upgrading the systems that they 
have in terms of airplanes, ships, and war-fighting equipment, 
as opposed to----
    Mr. Costa. What about the notion that the European Union is 
talking about putting its own defensive capabilities? Do you 
think that is compatible? I know that is still being sorted out 
among the EU.
    General Jones. Well, I think that whatever the alliance can 
do in the regard of organizing itself in such a way that they 
buy the right things and they do not all try to do the same 
thing----
    Mr. Costa. I think that is very important.
    General Jones. It is very important.
    Mr. Costa. They do not all need--some of them have certain 
talents in certain areas.
    General Jones. Exactly.
    Mr. Costa. And we should encourage them to pursue that 
instead of areas that are less effective.
    General Jones. Exactly. You will find that some of the 
smaller countries in NATO are actually specializing in quite 
impressive special operations capability, abilities to make 
significant contributions in electronic warfare, and the like. 
So, there is some specialization going on.
    And if you look at the graph that shows the equipment 
expenditure as a share of defense expenditures, well over half 
of the countries in NATO are approaching the NATO guideline of 
20 percent of their purchasing power being spent on relevant 
equipment. And so, that is very encouraging.
    Mr. Costa. Because of my time situation, I do not know--I 
think General Gerasimov, who is, I guess, equivalent to the 
Joint Chiefs of Staff, talked about their asymmetrical 
potential. And, Mr. Wilson, you made reference to Russia 
playing a disruptive hand, but smartly--those are my words, not 
yours--but using democratic elections as a means to undermine 
not only NATO as a deterrent to peace, but also undermine the 
European Union as an economic force.
    And frankly, if you look back to 2013-14, he gave that 
speech. They have done a fairly effective job. I mean, they 
have been undermining European elections even before 2016 with 
ours.
    And so, I guess my question to you is, what is the best 
way, Mr. Wilson and Dr. Farkas, to combat this, this real 
threat? Because while this may be the third hearing on NATO, I 
think it is important, when we tomorrow hold the Joint Session 
of Congress, realize that not only has this been the safeguard 
of our common values and rule of law, but it is the longest 
peacetime period in Europe for the last 70 years in over 1,000 
years. And that gets overlooked.
    Mr. Keating. And if you could--we are up against a roll 
call--if you could just keep that combined under a minute, that 
would be great.
    Ms. Farkas. I can be very quick.
    I did cover this in my written testimony. I would just say 
one part is resilience, so strengthening our democracy and 
transparency. The second part is deterrence.
    And then, I would say a little bit, based on the comments 
and question from the ranking member. We need to communicate 
very clearly to Russia what our expectations are, and if they 
cross a line, we need to be willing to take action. That was 
critical in Syria when the Russians attacked us, when their 
contract workers attacked us. And I think if we keep a firm 
line against Russia, keep the dialog open, hopefully, we will 
have a new regime at some point in the not-foreseeable future.
    Mr. Keating. General?
    General Jones. If I could just add to that, to the ranking 
member's statement, there is a difference, I think, in Europe--
and I noticed at the Munich Security Conference as well--
between how Western Europeans feel about the United States and 
how Eastern Europeans feel about the United States. So, that is 
something that it is real and it has to be dealt with.
    But what I have noticed in Western Europe is more of a 
trend toward appeasement against these autocrats in Russia and 
China. And that is a very dangerous thing. But the further east 
you go, the more you have solidarity with the U.S. philosophy, 
U.S. fears, U.S. identification of the threats that are coming 
toward us, be they military or economic or political.
    So, we really need to shore up the Western Europeans, I 
think, more so than we have. And that is why I think these 
initiatives, like I mentioned the Three Seas Initiative, are 
important in righting the balance in Europe, where the Eastern 
Europeans' economies can rise and make Europe a more powerful 
entity to combat these----
    Mr. Keating. Thank you. Thank you, General.
    The chair recognizes Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman.
    And I thank all of you for being here today.
    But, General Jones, your colleagues have already addressed 
this, and that is the admission of Georgia into NATO. I would 
be interested, because Georgia was promised in 2008 at the 
Bucharest summit that they would have the opportunity to join. 
Since then, the alliance has recognized Georgia already 
possesses all the practical tools for NATO membership. Georgia 
spends more than 2 percent of its GDP on defense, has committed 
the largest number of soldiers per capita of any allied nation 
in Afghanistan. How would you assess the potential for 
Georgia's admission to NATO?
    General Jones. Speaking as a personal opinion, I think 
Georgia has demonstrated fight way beyond its weight in terms 
of its contribution to Afghanistan and the quality of their 
soldiers and their commitment. Of course, admission to NATO and 
accession to NATO is largely a political question, but on the 
basis of performance, I would say that Georgia deserves our 
admiration, our support, and our encouragement for whatever it 
is they want to do with their own future.
    Mr. Wilson of South Carolina. And I agree. Thank you to all 
three of you. It is amazing.
    Mr. Wilson, Poland, which appreciates very much the 
temporary placement of troops, currently U.S. troops, in the 
country, has announced that they would support stationing a 
permanent U.S. brigade in the country and finance the 
infrastructure and basing. What would be your view of putting a 
permanent U.S.-NATO presence in Poland?
    Mr. Wilson. I think we need to recognize that the challenge 
we are facing from the Kremlin today is not temporary and we 
should not plan as such. This is a long-term challenge. We need 
to have a continuous presence and be permanent as long as we 
face a Kremlin that is intimidating and threatening our allies.
    Two other small things I would say is that we need to be 
comfortable with an uncomfortable relationship with Russia. And 
in response to some of the conversation, we should not be going 
through a political cycle that would consider any reset 
approach with Russia, for example.
    And finally, to consider enlargement as a stabilizing force 
rather than a provocative one. And that is a way to 
reconceptualize how we think about Georgia's role.
    Mr. Wilson of South Carolina. And I an really grateful to 
serve as the co-chair of the Bulgaria Caucus. March the 29th 
marked the 15th year of Bulgaria being part of NATO. How would 
you assess, Mr. Wilson, the benefits of Bulgaria as a part of 
the NATO alliance?
    Mr. Wilson. I think Bulgaria has been the fundamental story 
of how you create a Europe whole and free, where former 
adversaries become allies. That is the story from France-
Germany to former Warsaw Pact countries, to Bulgaria itself. It 
has been an important ally, helping to anchor the southeast 
flank.
    It also is where I have some concerns about Russian 
disinformation and penetration, where I think some of the 
Russian efforts are the most active and sometimes the most 
effective. I think Bulgaria is underappreciated in terms of our 
ability to push back on those influences.
    Mr. Wilson of South Carolina. And, Dr. Farkas, you have 
already addressed this, but, again, Russia has described 
further NATO enlargement as provocation in a variety of efforts 
to intimidate. Again, what can we do to push back on the 
infringement by the Russian Federation?
    Ms. Farkas. Well, first, of course, the Russians themselves 
have been provocative, not us. And our enlargement, as Damon 
said, and as I said in the opening statement, was aimed at 
spreading stability, not at provoking Russia. However, we found 
out we really do need to deter Russia. We need to keep having a 
dialog with Russia. Unfortunately, it is not going to happen 
within the normal context that NATO used to have the dialog 
because of Russia's infringements, because of the things that 
they have done, first and foremost, of course, occupying and 
illegally annexing territory.
    But I would argue that we have to hold the firm line on 
deterrence. For too long, we were hoping--and this spans 
multiple administrations and really the whole NATO alliance--
there was a hope that somehow the Russians would realize that 
this was a bad policy. Unfortunately, this Kremlin, this leader 
of Russia is not going to realize that. So, we have to hold a 
firm line.
    Mr. Wilson of South Carolina. Thank you.
    And a final question for the general. In regard to Turkey 
purchasing S-400's, should the United States still be 
providing, through NATO, F-35s?
    General Jones. Yes, I believe that that topic is being 
discussed almost as we speak between Turkey and the United 
States. I also serve as the chairman of the American-Turkish 
Council, a venerable institution for over 40 years. We just 
returned from a big trip to Turkey where we were received by 
the President, the Vice President, and every cabinet minister 
we wanted to speak. They are very active and very desirous to 
rebalance the relationship with the United States, working on 
these difficult problems, but also some resurgence in the trade 
relationships between our two countries.
    Mr. Wilson of South Carolina. Well, thank you for your 
personal efforts.
    Mr. Keating. Thank you.
    The chair recognizes the vice chairman of the committee, 
Ms. Spanberger from Virginia.
    Ms. Spanberger. Thank you, Mr. Chair.
    Thank you to our witnesses today.
    So much of our national security relies on global 
telecommunications infrastructure, including military systems, 
diplomatic channels, intelligence reporting, not to mention the 
critical infrastructure for day-to-day uses across this country 
and the world. Several countries, in addition to the U.S., have 
barred the Chinese company Huawei from supplying components for 
5G networks, citing national security concerns, including 
Australia, New Zealand, and Japan. Yet, European allies have 
not. As recently as February of this year, the head of 
Britain's cybersecurity agency, GCHQ, said they needed to 
better understand the opportunities and threats from China's 
technology. My question for you all today is, how great of a 
risk do Chinese 5G network providers pose to NATO's security in 
your estimation?
    General Jones. Thank you for that question.
    5G represents to me one of the big challenges that the 
United States faces with its competition with China. It is up 
there with John F. Kennedy's man-on-the-moon project. It is up 
there with the Manhattan Project for the 1940's. When I was a 
teenager in Europe in 1957, I witnessed the Sputnik moment 
where the headlines of the newspapers around the world said, 
``Russia Beats the United States to Space''. I do not want to 
see a headline where it says, ``China Beats the United States 
in Technology of 5G''.
    5G is the most disruptive technology that is going to come 
our way. It is absolutely critical to our national security and 
economic future that the United States not cede control over 
the infrastructure required for 5G and, more importantly, 
secure 5G. NATO's interoperability will be affected if there 
are countries in NATO who are showing signs of forgiving China 
and believing the theology that they advocate, which is 
cheaper, more reliable, no strings attached, and, you know, 
back doors to Beijing. This is a very, very serious threat.
    We are behind. And our private sector is going a pretty 
good job of developing the technology we need to ensure our 
security, but we need more government oversight and 
participation because this is really a moonshot for us. This is 
as important as anything we have ever done. If we lose this, we 
will lose a substantial portion of our ability to influence the 
world.
    Ms. Spanberger. And in your assessment, is there a way for 
NATO to mitigate the risks from Chinese 5G technology or do you 
believe that the United States should continue to pressure our 
European allies to avoid any agreements with China altogether?
    General Jones. So, there is 5G and there is secure 5G. By 
far the most important one is the secure 5G. On that score, I 
can tell you that our private sector is coming up with some 
very exciting technologies that would give us hope that we can 
prevail at least in the secure 5G world, technologies that are 
impenetrable, technologies that cannot be reverse-engineered.
    You cannot have a smart city without a secure network. That 
is obvious. And the United States I think can prevail. There 
will be countries that will buy Huawei equipment. And by the 
way, a lot of them are thinking twice about that right now, and 
that is a good thing. But if they do not care about it, if they 
just want cheap equipment and they do not care about the back 
door or the ability of China to eavesdrop on what they are 
doing, then more power to them.
    But it is absolutely incompatible, since we are talking 
about NATO, with the 30-nation alliance, that they would have a 
combination of Chinese technology and Western technology. That 
is just simply not going to happen.
    Ms. Spanberger. OK. Thank you, General Jones.
    I yield bak.
    Mr. Keating. Thank you.
    We have Mr. Pence, Mr. Cicilline, Mr. Guest. Having called 
the roll call, those members can choose to cut their questions, 
if they so choose, to 3 minutes, so we can get them all in 
there.
    The chair recognizes Mr. Pence from Indiana.
    Mr. Pence. Thank you, Chairman Keating, Ranking Member 
Kinzinger.
    Thank you all for being here today.
    Mr. Wilson, in your prepared testimony, you stated the 
following, and I quote: ``But the Russian challenge to us is 
likely to remain asymmetric. Therefore, we should double down 
on our support, working with the European Union to strengthen 
resilience of democratic societies through efforts that range 
from diversifying energy routes and supplies to democratic 
defense of disinformation.''
    I am glad you mentioned energy security. In our hearing 
last week that Congressman Kinzinger mentioned, I brought up 
this very topic and would be interested in your thoughts. This 
is my question to you all: is NATO doing enough to enhance 
energy security in the alliance, and how might we encourage 
NATO to engage with the EU to address their collective energy 
security challenges?
    Mr. Wilson. Thank you very much for that question.
    I will sort of refer to, as General Jones noted, this Three 
Seas Initiative. I do not think NATO is doing enough, and I 
think the key is an integrated strategy between NATO and the 
European Union. If Russia uses energy and weaponizes it against 
our allies, we need to work with our allies in a common 
strategy to defend against that. That, obviously, requires work 
with the European Union. So, part of this effort is how can the 
European Union, with the United States, help diversify those 
energy routes and supplies, particularly into Central and 
Eastern Europe, so that they are not found in a vulnerable 
position.
    And I think that is where the effort of the Three Seas 
Initiative is, how to build a cross-border infrastructure that 
is required, that is often not attractive to some private 
investment, but is quite necessary to give options to some of 
our more vulnerable allies. We have made progress on this 
agenda, but it has been too slow. We have not treated it as a 
first-order strategic priority of alignment between NATO and 
the EU on a common strategy, and I think it is an imperative 
one to add to that.
    Ms. Farkas. Yes, I would basically agree with all of the 
points that Damon made. NATO needs to get more actively 
involved, at a minimum, in a consultative fashion. But NATO 
members rely, their militaries rely on energy; they rely on 
fuel, and maybe to some extent on natural gas. So, there is a 
role for the defense ministries of these countries as well in 
putting pressure on their governments. But the EU largely has 
the lead on the issue. They took a while to become activated 
again, to become sufficiently alarmed to coordinate this, and 
they are doing a better job.
    General Jones. Thank you for that question.
    Philosophically, President Putin of Russia has shown that 
he is more than capable and willing of using energy as a 
weapon, and he has done so. The U.S., having catapulted itself 
into a position of global leadership on energy, has adopted a 
much more benevolent strategy. We care about military security, 
economic security, political security, and energy security.
    And with the Three Seas Initiative, and what it does, it 
reduces the dependency of about 20 different countries in 
Central and Eastern Europe off of the Russian ability to 
manipulate the political spectrum through threats to cutoff 
energy. It will effect better prices. It will effect the whole 
stability of the continent. And I think that arrival of the 
United States as a great power on energy should go beyond 
Europe. We should also compete with China aggressively in 
Africa on energy security as well, because energy is not the 
commodity that China can export. We can.
    Mr. Pence. Thank you, Mr. Chairman. I yield.
    Mr. Keating. The chair recognizes Mr. Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses.
    As you have all said, NATO is, obviously, rooted in a 
bedrock of shared democratic values. And I think, like many, 
you have expressed concern about democratic backsliding, 
particularly in Hungary and Poland, and, of course, Turkey is 
hardly democratic today. And I am just curious, maybe starting 
with you, Mr. Wilson, what can Congress do to kind of shore up 
these democracies in Europe and within the alliance? Some have 
suggested NATO should begin an annual report or review of 
democracy within the alliance. I wonder what you think of that 
and what Congress might do to support that.
    And, Dr. Farkas, if you could follow? I know you said that 
these countries must be accountable. I think we all agree, but 
it is unclear exactly how we do that under the current kind of 
structure of NATO. How do we actually hold these countries 
accountable?
    So, maybe start with you, Mr. Wilson.
    Mr. Wilson. Thank you for that question.
    My approach is a little bit different perhaps than as Dr. 
Farkas outlined. I think our premise should be to keep our 
allies as our allies. And if we look 10-20 years out, the last 
thing we want to see is an alliance in which Turkey is not 
aligned with us, but perhaps someone else. I think the openings 
there of the cleavages within our alliance are a strategic 
vulnerability that a country like Russia can exploit.
    It does not mean that we do not have concerns about what is 
developing. But if you look at local elections in Poland, local 
elections in Turkey, there is a vibrancy to these civil 
societies, to these opposition parties, to their political 
class. And I think that, through engagement rather than 
isolation, rather than ostracizing our allies, being engaged, 
and I think that helps with the congressional body, with other 
parliaments, meeting cross-party--you know, as you are doing 
meetings, doing cross-party parliamentary meetings with your 
counterparts. Because my view of the alliance is to provide an 
architecture, an infrastructure, which provides a bedrock sense 
of security that our democracies, whether it is our own or 
others, can be self-correcting and help nurture this.
    So, I am reluctant to go down the path of a NATO passing 
judgment on democracies within that club while trying to set 
the standards that we want to uphold, but understand that this 
isolating, calling out, or not meeting with, going 20 years 
without a head-of-State meeting with the Hungarian leadership, 
is not the best way to pursue democracy, in my view. I think it 
opens up opportunities for the Russians to play games and to 
potentially cause danger of peeling back our alliance.
    Mr. Cicilline. Dr. Farkas?
    Ms. Farkas. Yes, in my written testimony I also wrote a 
little bit more extensively on this. And I noted that, when 
Secretary Pompeo was recently in Budapest, he talked about a 
new fund, new funding to help boost the civil society, to boost 
the--he did not say the opposition, but the civil society in 
Hungary.
    So, I think I would agree with Damon's approach, which is 
we do not need to set, certainly not another public litmus test 
like 2 percent, because I do not think it helps. And as he 
said, our adversaries will exploit it. But, behind closed 
doors, I think we have to speak frankly with the heads of State 
and the ministers, but, then, engage, as Damon said, not just 
in the meetings we hold, but our government needs to put more 
money back into those programs that we used to fund to help 
bolster civil society in Eastern Europe and elsewhere. So, I 
think those are very important, and media outreach programs, 
and Fulbrights, and all of these people-to-people things, so 
that, hopefully, we can help their societies evolve either back 
to where they were before or to a better place.
    General Jones. Thank you for that question.
    I would strongly encourage more congressional engagement 
with NATO. When I was over in SACEUR, the congressional visits 
were always well-received by our European partners. I would 
double down on those missions. I think they are very important.
    I would recommend that our country reaffirm, without any 
question, our commitment to Article 5 and NATO. I think that 
has got to be--we should not ever dangle that as a negotiating 
tool because it makes everybody nervous. And by the way, Russia 
needs to hear that as well.
    We should praise what the alliance has done. We criticize 
it quite a bit, but I do not see enough praise coming from this 
side of the Atlantic to what they are doing.
    I think, frankly, I would champion a revamping of the 
partnership program and the membership program, which I think 
should be divided. There are countries like Brazil and 
countries all over the world that would like to have an 
interoperable mission with NATO, and I think we should 
encourage that. The membership side should be completely 
distinct. There should be a very rigid, step-by-step process 
where countries can become members. But, right now, the two are 
kind of in the same building, if you will, and it is unclear. 
The distinction between the two is unclear.
    So, I think there is a lot more we can do. I just think we 
need to praise NATO when they deserve to be praised because we 
do not hesitate to criticize them.
    Mr. Cicilline. Thank you.
    Mr. Keating. Thank you, General.
    The chair recognizes Mr. Guest from Mississippi.
    Mr. Guest. Thank you, Mr. Chairman.
    NBC News reported earlier today that the United States has 
blocked turkey from receiving equipment related to the F-35 
fighter jet until its NATO ally cancels an order of the Russian 
missile defense system, which we know to be the S-400. Assuming 
that that information is correct, General, do you agree with us 
canceling their receiving the F-35s?
    General Jones. Before the hearing started, I saw another 
newsclip that said that Acting Secretary of Defense Shanahan 
said that he believes that the S-400 issue will be resolved and 
that the F-35 will be included in Turkey's architecture. So, I 
am on the private sector. I cannot----
    Mr. Guest. Well, let me ask, as a former general and as a 
private citizen, would you agree with canceling the F-35 if 
Turkey does not agree to cancel the S-400 missile system? Do 
you think that is a prudent decision by the United States 
Government?
    General Jones. My military friends tell me that the 
compatibility of the F-35 operating in the same vicinity as the 
S-400 gives away some of the technology of the F-35 that the S-
400 system could not otherwise acquire. I am very hopeful that 
this is going to be resolved because this is really important 
for the alliance. It is important for the bilateral 
relationships.
    I would like to remind the committee that years ago Greece 
bought the S-300 from Russia, and the alliance put so much 
pressure on Greece that they bought the system, but they never 
deployed it, and it averted a crisis.
    I know from my Turkish friends that there is some 
willingness to consider the deployment options available to 
them. And so, I hope this thing is working out. I was very 
encouraged to see this clip before I appeared before you.
    Mr. Guest. And, Dr. Farkas, the same question to you. If 
Turkey refuses to cancel that order, do you agree that we 
should not sell them the F-35s?
    Ms. Farkas. Congressman, I am not sure whether I would link 
the two, just because I have not studied the issue. So, the 
kind of political scientist, policymaker, geek in me says I 
need to study it.
    But I will tell you that it is deeply disturbing that 
Turkey is dangling this in front of us. I do not know how 
serious it is. And the reason I say that is because, when I was 
in the Pentagon, they also were toying with buying a Chinese 
system. And some of this plays into Turkey's desire to show 
that they are somehow independent of the United States, of our 
pressure. It is not helpful at this time in history.
    It may also be part of their overall effort to put pressure 
on our government vis-a-vis Syria and what is happening there. 
So, I think I would look very closely at the macro picture. I 
am not sure I would, again, tie the F-35 directly to this S-400 
deal, but the S-400 deal, I would say it cannot stand.
    Mr. Guest. And, Mr. Wilson, I will give you an opportunity 
to answer the question as well.
    Mr. Wilson. I think, strategically, we want Turkey in the 
F-35 program. We need to recognize that we are in the Turkish 
bazaar negotiating right now. And I think even today's 
statements are playing out. There is a high-stakes negotiation.
    Now that we are through Turkish elections, I hope they can 
be serious. We understand that the Russians put real pressure 
on Erdogan after the shootdown of a Russian jet over Syria in 
Turkish airspace to go through with this. I think we need to 
see it either canceled or deployed in such a way that it is 
actually deployed/mothballed at the same time, so that it does 
not provide a cleavage place, a vulnerability for the F-35, 
which has to be our No. 1 priority to protect that program's 
integrity.
    Mr. Guest. And would you agree, Mr. Wilson, as the general 
spoke of a few moments ago, that if the S-400 was deployed in 
Turkey at the same time our fighter jets were, that it would be 
able to give the Russians or our adversaries information about 
capabilities that they do not currently have?
    Mr. Wilson. That is what I understand from people who have 
more technical expertise than I do. That is where this either 
comes in, do we either come out of a negotiation that leads to 
a cancellation or is there a saving-face option where the Turks 
end up paying for this and it is not deployed and used in such 
a way that it would cause that concern for us?
    Mr. Guest. Thank you.
    Mr. Chairman, I yield back.
    Mr. Keating. Thank you, Mr. Guest.
    I would like to thank our witnesses for being here and the 
subcommittee members as well, working around roll calls and 
hearings.
    It is critical to have a strategy for NATO to grow and 
evolve and address the new and emerging threats. And I look 
forward to working with my colleagues on the committee this 
Congress to address it.
    We appreciate the comments you have made about the role of 
Congress going forward. I think it is a very important role.
    Members of the committee may have an additional time to ask 
questions of our witnesses in writing, and we ask our witnesses 
to please respond to those questions in writing as well. The 
record will be open for 10 more business days to receive those 
responses.
    Mr. Keating. Again, we thank all of you for being here and 
an important discussion about the future of NATO and where we 
are going, certainly an evolving one.
    With that, this hearing is adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
